Audit Report




OIG-09-011
Management Letter for Fiscal Year 2008 Audit of the
Federal Financing Bank’s Financial Statements


November 21, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 21, 2008


            MEMORANDUM FOR GARY BURNER, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2008 Audit of the
                                  Federal Financing Bank’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Year 2008 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2008, and for the year then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.
Page 2

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Donna Joseph, Manager, Financial Audits, at
(202) 927-5784.

Attachment

cc:   Kenneth Carfine
      Vice President, FFB

      Meredith Broome
      Vice President and Treasurer, FFB
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




November 10, 2008

Inspector General, U.S. Department of the Treasury, and the Board of Directors, Federal Financing Bank:

We have audited the financial statements of the Federal Financing Bank (the Bank) for the year ended
September 30, 2008, and have issued our report thereon dated November 10, 2008. In planning and
performing our audit of the financial statements of the Bank, we considered internal control in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements,
and not to provide assurance on internal control. We have not considered internal control since the date of
our report.

During our audit, we noted certain matters involving internal control and other operational matters that we
present for your consideration. These comments and recommendations are summarized in Exhibit I. They
have been discussed with the appropriate members of management, and are intended to improve internal
control or result in other operating efficiencies.

We also provide in Exhibit II the status of the comments and recommendations included in our letter
arising from the fiscal year 2007 audit.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and, therefore, may not bring to light all deficiencies in policies or procedures that may exist. We aim,
however, to use our knowledge of the Bank gained during our work to make comments and suggestions
that we hope will be useful to you.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, the Office of
Management and Budget, and the U.S. Congress, and is not intended to be, and should not be, used by
anyone other than these specified parties.




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                                                                                              Exhibit I

                                  Federal Financing Bank 

                               Comments and Recommendations 


                                       September 30, 2008



1.   System Development Methodology and Configuration Management Plan

     The Bank has not developed and documented a formal system development life cycle (SDLC)
     methodology or configuration management plan in accordance with the National Institute of
     Standards and Technology (NIST) Special Publication (SP) SP 800-64, Security Considerations in
     the Information System Development Life Cycle.

     Recommendation
     We recommend that the Bank continue its efforts in developing and documenting a system
     development methodology and a configuration management plan. The system development
     methodology should describe programming naming conventions, the system development phases
     and what is to be performed in each, procedures for handling emergency programming changes,
     application test procedures, development, test and production access control lists, etc., as
     documented in NIST SP 800-64.

     Management’s Response
     Management concurs with the finding and recommendation. Management indicated that a process
     is currently under way to document a system development methodology as part of the overall
     information technology system restructuring. The process should be completed in fiscal year 2009.

     We did not audit management’s response, and, accordingly, we express no opinion on it.

2.   Outdated LMCS Oracle Database Management System

     Oracle® ended support of the Loan Management and Control System (LMCS) Oracle Database
     Management System in fiscal year 2006; however, the Bank has not upgraded the Oracle Database
     Management System that supports LMCS to a current supported version.

     Recommendation
     We recommend that the Bank continue with plans to upgrade the LMCS Oracle database
     management system to a current version of Oracle.

     Management’s Response
     Management concurs with the finding and recommendation. Management indicated that an
     upgrade to Oracle 9 is planned for fiscal year 2009.

     We did not audit management’s response, and, accordingly, we express no opinion on it.




                                                   2                                                      

                                                                                              Exhibit I

                                  Federal Financing Bank 

                               Comments and Recommendations 


                                       September 30, 2008





3.   Password Requirements

     The Bank did not set the LMCS minimum password length to meet the requirement of eight (8)
     characters outlined in the LMCS System Security Plan (SSP).

     Recommendations

     We recommend that the Bank configure LMCS to require users to use at least eight-character
     passwords, in accordance with the LMCS SSP.

     Management’s Response
     Management concurs with this finding and has revised password parameters to meet the
     8-character requirement in the LMCS SSP in October 2008.

     We did not audit management’s response, and, accordingly, we express no opinion on it.




                                                   3                                                      

                                                                                          Exhibit II

                                   Federal Financing Bank 

                           Status of Prior Year Recommendations 


                                      September 30, 2008 





         Prior Year Recommendations                            Current Year Status

1. System Security Plan                         This comment has been corrected.

2. System Development Methodology and           This comment has not been corrected and is repeated
   Configuration Management Plan                as comment 1 in the current year Management Letter.

3. Outdated LMCS Oracle Database Management     This comment has not been corrected and is repeated
   System                                       as comment 2 in the current year Management Letter.

4. Password Requirements                        This comment has been partially corrected. We have
                                                repeated the portion of the finding that has not been
                                                corrected as comment 3 in the current year
                                                Management Letter.

5. LMCS Change Control Procedures               This comment has been corrected.




                                                 4                                                      

